HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Center's Award Process for a Contract With the
Mississippi Department of Health, Office of Health Disparity Elimination,"
(A-03-06-00536)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Center's
Award Process for a Contract With the Mississippi Department of Health, Office
of Health Disparity Elimination," (A-03-06-00536)
February 20, 2007
Complete Text of Report is available in PDF format (102 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by the Program Support Center (PSC) and other components of the Department of Health and Human Services (HHS) in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR) provide, among other things, that HHS agencies award each contract to a responsible party and document compliance with requirements for full and open competition and the determination that the price was fair and reasonable.
As part of HHS’s hurricane relief operations, PSC awarded a contract to the Mississippi Department of Health, Office of Health Disparity Elimination (Mississippi) to address the State’s health and housing needs. Our objective was to determine whether PSC complied with FAR and HHSAR requirements during the award process involving Mississippi. PSC complied with the requirements.